OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/RUSSIA’S
DEVELOPMENT CREDIT
AUTHORITY
AUDIT REPORT NO. 8-118-06-002-P
May 22, 2006




FRANKFURT, GERMANY
        Office of Inspector General


May 22, 2006


MEMORANDUM

TO:                  USAID/Russia Mission Director, Terry Myers

FROM:                Regional Inspector General/Frankfurt, Gerard M. Custer /s/

SUBJECT:             Audit of USAID/Russia’s Development Credit Authority
                     (Report No. 8-118-06-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included them in their entirety as
Appendix II.

The report contains three recommendations. In your written comments, you concurred with all
three recommendations and described actions the Mission plans to take to address the auditors’
concerns. Based on your comments, management decisions have been reached for
Recommendations Nos. 1 and 2 and final action has been taken for Recommendation No. 3.
Please coordinate final action for Recommendations Nos. 1 and 2 with USAID’s Bureau for
Management, Office of the Chief Financial Officer, Audit Performance and Compliance Division
(M/CFO/APC).

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
Giessener Str. 30
60435 Frankfurt
Germany
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


     Did USAID/Russia manage its Development

     Credit Authority guarantees to ensure that

     selected intended results were achieved?


Audit Findings ................................................................................................................. 4 


     Loan Guarantees Were Not Always Used to 

     Benefit Borrowers in Underserved Markets ................................................................ 6 


     Reporting Provisions Need to Be Revised to 

     Improve Performance Monitoring................................................................................ 8 


Evaluation of Management Comments ....................................................................... 10 


Appendix I – Scope and Methodology ........................................................................ 11 


Appendix II – Management Comments ....................................................................... 13 

SUMMARY OF RESULTS

The Development Credit Authority (DCA) is a broad financing authority that allows
USAID to use credit to pursue any of the development purposes specified under the
Foreign Assistance Act. Access to credit is a chronic problem in less developed
countries. The commercial banking sector is often unwilling to lend funds to small and
medium enterprises (SMEs) because of the perceived risks and lack of credit history. In
those instances where financing is available, lenders frequently impose burdensome
collateral requirements and short repayment periods which effectively prevent SMEs
from being able to obtain credit. To help overcome some of these lending obstacles,
USAID has used DCA partial loan guarantees to encourage commercial banks to
finance development projects that otherwise might not be funded.

This audit was performed by the Regional Inspector General in Frankfurt as part of a
worldwide audit of USAID’s DCA loan guarantees. The objective of the audit was to
determine whether USAID/Russia managed its DCA loan guarantees to ensure that
selected intended results were being achieved. (See page 3.)

USAID/Russia generally managed its portfolio of DCA loan guarantees to ensure that
selected intended results were being achieved. For example, all three of the lenders
receiving loan guarantees from the Mission were found to be achieving their loan
utilization targets as of September 30, 2005. The activities selected for review under two
of these loan guarantees were determined to be consistent with the intended purpose of
the loans they were funded under and supported the Mission’s strategic objectives.
During a field visit to one lender, the audit team observed how the Mission’s loan
guarantees were enabling qualified SMEs in southern Russia to have improved access
to credit for the purposes of starting-up or expanding their businesses. (See page 4.)

The audit, however, identified two areas where improvements were needed to address
existing problems and strengthen USAID/Russia’s procedures for monitoring its loan
guarantees. For example, one of the Mission’s lenders was routinely awarding USAID-
guaranteed loans to borrowers that could otherwise obtain credit without the guarantee,
rather than to those creditworthy borrowers that lacked access to this credit, thereby
undermining the intent of the guarantees. (See page 6.) In addition, the Mission was
not receiving sufficient information from another lender to effectively monitor results.
This lender, after receiving its loan guarantee, had awarded a guaranteed bank-to-bank
loan to a secondary lender to provide the latter with capital for making loans to SMEs.
The Mission’s agreement with the prime lender, however, did not include reporting
provisions requiring it to furnish performance information on the individual loans made by
the secondary lender to the Russian SMEs―creating a reporting gap. (See page 8.)

The report contains three recommendations to address the two deficiencies identified
above and improve USAID/Russia’s monitoring over its DCA loan guarantee portfolio.
(See pages 7 and 9.) Mission management concurred with the recommendations and
intends to implement corrective actions when making future DCA guarantees and
reviewing loan activities. Based on the actions taken and planned, we consider that a
management decision has been reached for Recommendation Nos. 1 and 2 and final
action has been taken for Recommendation No. 3. USAID/Russia’s comments are
included as Appendix II to this report (page 13).


                                                                                        1
BACKGROUND

Empirical studies have shown that credit to the private sector plays a crucial role in
economic growth and that developed countries enjoy higher growth rates partly because
they have more vigorous credit markets. Unfortunately, this is seldom the case in less
developed countries where the commercial banking sector is often unwilling to lend
funds to small and medium enterprises (SMEs) because of the perceived risks, lack of
credit history and the lender’s low liquidity. Even when credit is available in these
countries, lenders frequently impose burdensome collateral requirements and short
repayment periods, which effectively discourage or prevent SMEs from obtaining credit.

Authorized by Congress in FY 1998 and certified by OMB in FY 1999, the Development
Credit Authority (DCA) provides USAID missions with a tool they can use to help
overcome some of the lending obstacles that exist in many underserved markets. This
Authority, implemented through the USAID Office of Development Credit (ODC), allows
missions to partner with local lending institutions in making resources available to SMEs
to support specific development objectives. Through the use of loan guarantees, in
which missions insure a portion of the risk with the lenders, USAID is able to encourage
lenders to extend credit for projects that otherwise might not receive funding and, in
doing so, stimulate new private investment and the development of local capital markets.

DCA guarantees are designed by USAID's overseas missions and managed jointly by
the mission and ODC in Washington, D.C. In managing these guarantees, missions are
primarily responsible for developmental monitoring, while the ODC is responsible for the
financial monitoring. As of September 2005, USAID’s DCA loan guarantees had
established 143 public-private partnerships and generated approximately $317 million in
loans from lenders to local borrowers.1

USAID/Russia’s portfolio of DCA loan guarantees consisted of agreements with three
lenders; two of which involved loan portfolio guarantees while the third was a loan
guarantee that resulted in a bank-to-bank loan. The maximum amount of credit to be
generated from these guarantees, as of September 30, 2005, totaled $17 million, of
which USAID agreed to guarantee up to 50 percent or $8.5 million as shown below.1

                                         Maximum       Maximum         Current       Final Date
    Financial Institution     Date       Portfolio     Contingent     Utilization   for Placing
                             Started     Amount         Liability      Percent      New Loans
    SDM Bank                9/24/2003     $3 million   $1.5 million    99.85%       9/24/2008
    Center Invest Bank      9/24/2002     $6 million     $3 million    43.62%       9/23/2007
    ZAO Raiffeisen Bank     12/28/2004    $8 million     $4 million    87.53%       12/24/2006

                   Total                 $17 million   $8.5 million


As of September 30, 2005, no claims for delinquent loans had been made.



1
    These figures are unaudited.


                                                                                                  2
AUDIT OBJECTIVE
This audit was performed as part of a series of audits conducted worldwide on USAID’s
Development Credit Authority. As part of its fiscal year 2006 audit plan, the Regional
Inspector General in Frankfurt performed this audit to answer the following question:

   	 Did USAID/Russia manage its Development Credit Authority guarantees to ensure
      that selected intended results were achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




Map of Russia with arrows indicating the two cities―Moscow and Rostov―where the audit team
conducted fieldwork which included site visits to projects funded with DCA-guaranteed loans.




                                                                                         3
AUDIT FINDINGS

For the areas reviewed, USAID/Russia generally managed its Development Credit
Authority (DCA) guarantees to ensure that selected intended results were achieved.
Improvements, however, are needed to strengthen accountability and monitoring.
Specifically, USAID/Russia’s procedures for managing its DCA loan guarantees need to
be improved to ensure that: 1) guaranteed loans are awarded in a manner that directs
credit to underserved markets (i.e., to borrowers who would otherwise not qualify for the
loans) and not simply used to subsidize the lender’s operations; and 2) the Mission
receives performance data from all of its partner banks (i.e., lenders) in sufficient detail
to monitor the loan activity under each of its loan agreements. These issues are
discussed further on pages 6 through 9.

In monitoring the status of activities and progress in meeting utilization targets under
each of its DCA loan guarantee agreements, USAID/Russia received and reviewed
updated performance data generated by USAID’s Credit Management System (CMS)
database. Mission staff also maintained regular contact with its lenders via telephone
and through annual visits to selected lenders as well as received financial statements
and documents related to the lender’s performance as rated by an independent source.

The audit also determined that the following selected results were being achieved:

   9	 All of the Mission’s lenders had met their utilization targets and were on track to
      issue the entire amount of authorized credit well in the advance of the end of the
      agreement period. For example, one lender had issued the full amount of its
      guaranteed financing by November 2005, only two years into its 5-year term,
      while another lender had awarded 50 percent of its financing in its initial year.

   9	 Loan guarantees were contributing toward achieving the Mission’s strategic
      objectives and were supporting the objectives specified in its action memo.

   9	 Activities funded by the loan guarantees were consistent with the loan purpose.

In addition to the above results, the audit team observed first-hand, during a field visit to
one lender, how USAID/Russia’s loan guarantees were making a positive impact for a
number of small and medium enterprise (SME) borrowers. Because of the USAID loan
guarantee, this lender was able to reduce its risk and lower its collateral requirements,
thereby allowing its borrowers to have access to credit they would otherwise not be able
to obtain for start-up or expansion purposes. We visited several such borrowers and
saw how each benefited from their USAID guaranteed loan. For example:

   	 One loan was awarded to a small wholesaler of construction materials who
      used the proceeds to purchase additional insulation materials and open two
      new branch offices in an effort to increase its customer base. The company
      employs 21 employees and serves the entire southern Russia region. The
      owner was very grateful for the USAID guaranteed loan since he did not have
      enough collateral to obtain a regular business loan.



                                                                                           4
   	 A second loan was awarded to a construction and concrete business with 47
      employees. The business received a USAID guaranteed loan totaling 2.5 million
      Russian Rubles (approximately $86,207) which the company used to modernize
      its concrete making machine so as to produce better quality concrete, and in
      greater quantities, thereby allowing the company to take on larger construction
      projects. The loan also helped the business to later accumulate enough
      collateral to qualify for a regular loan.




            Photo of a cement maker that was modernized using the proceeds from a
            USAID guaranteed loan. This upgrade doubled the equipment’s production
            capacity and improved the quality of the concrete produced, enabling the
            borrower, a construction company, to expand into larger and more lucrative
            construction projects. (Rostov-an-Don, Russia; January 19, 2006)

   	 Another loan was made to a small wholesaler of kielbasa (sausage) with 25
      employees. Prior to receiving its USAID guaranteed loan, the business
      experienced difficulty obtaining financing from other banks since most of the
      business’ funds were tied up in its inventory of food, making it difficult to meet
      the collateral requirements. Using the proceeds from the loan, the business
      was able to obtain a contract with a mayonnaise supplier which allowed the
      business to diversify its inventory and increase its customer base.

   	 USAID’s loan guarantee also benefited a local wholesaler of metal doors with 30
      employees. This was the first loan this borrower had ever obtained for his
      business. Thanks to the loan, he was able to open a new shop and now has
      enough collateral to qualify for a regular business loan.

Despite these successes and the Mission’s efforts to monitor its DCA loan guarantees,
two areas were identified where improvements were needed to strengthen accountability
and oversight. These are discussed in detail in the following sections.



                                                                                         5
Loan Guarantees Were Not Always Used to

Benefit Borrowers in Underserved Markets


 Summary: DCA loan guarantees are intended to provide USAID Missions with a tool
 which may be used to encourage the use of credit and stimulate investment in
 underserved markets. To achieve this, USAID policy restricts DCA financing to those
 development projects that otherwise would not be funded. One of USAID/Russia’s
 lenders, however, was found to be providing loans to borrowers that could obtain the
 credit without the guarantee, including some borrowers who exceeded the asset
 ceilings prescribed in the Mission’s loan guarantee agreement. This occurred because
 USAID’s monitoring over this activity was not sufficient to detect and address these
 types of deficiencies. As a result, borrowers that should not have received a USAID
 guaranteed loan tied up large portions of the loan utilization that should have been
 made available to other borrowers―those DCA was designed to benefit―thereby
 limiting the impact of the Mission’s loan guarantees.

The Development Credit Authority (DCA) provides overseas USAID Missions with a tool
by which they may encourage the use of credit and expand financial services in
underserved markets. To stimulate financing within underserved markets, USAID
guaranteed loans are intended as a source of private capital for projects that otherwise
would not be funded. Specifically, USAID’s Automated Directive System (ADS), section
249.3.1(g) states that “DCA financing must not be used unless it is probable that the
transaction would not go forward without it, taking into consideration whether such
financing is available for the term needed and at a reasonable cost.”

Contrary to this guidance, USAID guaranteed loans were not always being awarded to
those borrowers the DCA was designed to assist. One lender revealed during a field
visit that its primary motivation for participating in the Mission’s DCA loan guarantee
activity was to improve its image in order to attract other investors and acknowledged
that it had made little effort to extend its guaranteed loans to new eligible borrowers; in
fact, half of the lender’s borrowers receiving guaranteed loans involved clients that had
earlier received non-guaranteed loans. Despite the fact that the lender’s credit risk was
reduced by the USAID loan guarantee, the lender made no effort to revise its loan terms
(e.g., collateral requirements, repayment period and interest rates). Instead, the lender
continued to make loans to borrowers who would have qualified for the loans without the
USAID guarantee. We also noted that four of the borrowers receiving guaranteed loans
did not qualify for these loans as their asset levels exceeded the prescribed ceilings.
These loans together represented 47 percent of the lender’s guaranteed loans to date.

USAID/Russia’s Action Memorandum Plan for this lender stated that the Mission would
encourage the lender to extend loans to commercially viable SMEs which might not
otherwise be able to access credit. However, the Mission’s subsequent guarantee
agreement with the lender did not include language that restricted USAID guaranteed
loans to only those borrowers who could not have obtained credit without the DCA loan
guarantee.      Missions are permitted to make additions to the standard language
contained in the agreement when deemed necessary. A USAID/Russia representative
stated that modifying the DCA guarantee agreement to include a provision addressing
this issue would not pose a problem. Given the competition among lenders for the DCA
guarantee, lenders would likely be willing to accept the additional requirement.


                                                                                         6
It was also noted that USAID/Russia had not detected this problem during its annual site
visit to the lender. In October 2005, the Mission made a visit to this lender in conjunction
with a biennial visit by staff from USAID’s Office of Development Credit (ODC). During
this visit, the team reviewed the credit files for two judgmentally selected loans as
required. While the report summarizing the results from this visit indicated that both
borrowers had received prior loans, there was no indication the Mission was aware that
a number of the guaranteed loans were being issued to borrowers that were not eligible
in the sense that the borrowers either qualified for non-guaranteed loans or exceeded
the asset ceiling prescribed in the guarantee agreement. In contrast, our review of 19
loan files from this same lender, representing 45 percent of the lender’s total number of
USAID-guaranteed loan transactions, disclosed four instances where borrowers had
exceeded the asset ceiling and were therefore ineligible for the guaranteed loan. The
lender openly acknowledged that all of the borrowers receiving the USAID-guaranteed
loans would have been eligible for a regular (i.e., non-USAID guaranteed) loan. While
the visit by the Mission and ODC met the minimum requirements of the DCA Operations
Manual, it was clear that the extent and scope of the testing done during this visit was
not sufficient to detect the type of eligibility discrepancies identified.

With all of the lender’s USAID-guaranteed loans, totaling approximately $2.2 million,
being awarded to borrowers who were already eligible to receive non-USAID guaranteed
loans, this significantly reduced the amount of credit available for eligible SMEs who
otherwise would not be able to obtain it―those the DCA was designed to benefit.
Further, with no relaxation in the lender’s loan requirements (e.g., collateral), despite its
reduced risk, the DCA loan guarantees merely subsidized this lender’s operations which
undermined the intent of the loan guarantee in stimulating new investment to
underserved markets.

To prevent lenders from following this practice in the future, USAID/Russia needs to
include additional language in its loan guarantee agreements with its lenders to clarify
the eligibility requirements and ensure that USAID-guaranteed loans are restricted to
only those qualified borrowers who otherwise would not be able to receive the credit
through the lender’s other loan programs. In addition, the Mission needs to modify the
scope and nature of the spot testing it performs in conjunction with field visits to improve
its monitoring and ability to detect potential performance problems. To assist the
Mission in this effort, we are providing the following recommendations.

   Recommendation No. 1: We recommend that USAID/Russia modify its standard
   Development Credit Authority loan guarantee agreement to include provisions
   requiring that USAID-guaranteed loans be restricted to qualified borrowers that
   would not otherwise qualify for other loans offered by the lender.

   Recommendation No. 2: We recommend that USAID/Russia, in conjunction with
   the Office of Development Credit, revise its verification and review procedures by
   increasing the extent of the testing to be performed during site visits in verifying
   that borrowers meet the prescribed eligibility requirements.




                                                                                           7
Reporting Provisions Need to be Revised to
Improve Performance Monitoring

 Summary: USAID/Russia was not receiving sufficient performance information from
 one of its lenders to monitor the status of the loans made to individual borrowers (i.e.,
 SMEs). The Mission had signed an agreement with this lender―a non-Russian
 financial institution―to make a bank-to-bank loan to a Russian lender so that the latter
 would have sufficient capital to make loans to qualified SMEs. Although the Mission’s
 agreement with the non-Russian (prime) lender required performance information on
 the bank-to-bank loan, the reporting provisions contained in the agreement did not
 extend to the subsequent loans made by the Russian lender to the SMEs. As a result
 of this reporting gap, the Mission has not been receiving sufficiently detailed
 information at the borrower level to effectively monitor the overall performance of the
 small business loans made in connection with the USAID loan guarantee and to
 determine whether the desired results were being achieved.

The DCA Operations Manual specifies the reporting requirements that are to be included
in all DCA loan guarantee agreements. Part II, section 10(i) of the Manual, for example,
requires that lenders, at a minimum, submit a Qualifying Loan Schedule on a semi
annual basis listing all new loans placed under coverage, outstanding loans, and loans
dropped from coverage during the past six months. This schedule is intended to enable
both the Mission and ODC to monitor the status of the lender’s guaranteed loan activities
and to take appropriate action when issues arise. Under normal circumstances, the data
reported by the lender in this loan schedule would involve individual USAID-guaranteed
loans made to SMEs.

USAID/Russia, however, was not receiving sufficient information from one of its lenders
on the status and overall performance of the individual loans that were being awarded to
the SMEs (through a secondary lender). This two tiered financing arrangement,
involving two separate lenders, was prompted in response to an earlier attempt by the
Mission to initiate a bond guarantee with one of the lenders. Originally, the Mission
drafted a guarantee agreement with the NBD Bank (NBD), a local Russian financial
institution, to back a bond issuance intended to provide funds for the lender to expand its
existing small business loan program. Shortly before the signing of this agreement,
however, it was discovered that the bond issuance was not allowed by Russian law.
USAID/Russia subsequently signed a loan guarantee agreement with another lender,
ZAO Raiffeisen Bank Austria (Raiffeisen), to lend NBD the capital needed to expand its
small business loan portfolio.

Although the Mission’s loan guarantee agreement with Raiffeisen required performance
information on the bank-to-bank loan, between Raiffeisen and NBD, the reporting
provisions contained in the agreement did not extend to the subsequent loans made by
NBD to its borrowers―the small businesses the loan guarantee was intended to benefit.
According to the original draft agreement with NBD, the proposed bond guarantee
included provisions for reporting information about NBD’s loan portfolio to USAID.
Unfortunately, this agreement was never finalized, and the reporting provisions included


                                                                                         8
in the agreement, covering NBD’s loans to its SMEs, were not incorporated into the
subsequent agreement with Raiffeisen.

With Raiffeisen’s performance reporting limited to its bank-to-bank loan with NBD, the
Mission has not been receiving sufficient information on NBD’s borrowers to effectively
monitor and assess the overall performance of the small business loans made in
connection with USAID’s loan guarantee. This, in turn, has reduced the Mission’s ability
to detect potential problems associated with NBD’s loans to SMEs, which represents a
large portion of the Mission’s total DCA portfolio. Under its agreement with Raiffeisen,
the Mission agreed to provide a 50 percent guarantee on the $8 million Raiffeisen
loaned to NBD―representing 47 percent of the Mission’s total loan guarantee portfolio.

In order for the Mission to effectively monitor the performance of its loan guarantees, it
needs to receive information on loan activity at the borrower (i.e., SME) level. To
improve the monitoring under this DCA guarantee, we are recommending the following:

   Recommendation No. 3:         We recommend that USAID/Russia develop
   procedures to ensure that the Mission obtains sufficiently detailed performance
   information from the NBD Bank to determine if the desired results are being
   achieved under its Development Credit Authority loan guarantee agreement with
   Raiffieisen Bank Austria.




                                                                                        9
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Russia concurred with the audit
recommendations, and detailed the actions it has taken or plans to take to implement the
recommendations, including target completion dates where applicable. Based on our
review of the actions taken and planned by the Mission, we consider that management
decisions have been reached on Recommendation Nos. 1 and 2 and that final action
has been taken on Recommendation No. 3.

In response to Recommendation No. 1, Mission management stated it would incorporate
new language into the standard DCA loan guarantee agreement. The specific language
developed by USIAD/Russia will be presented to DCA/EGAT and, if approved, they will
be incorporated in future DCA agreements. Based on the response from the Mission,
we consider that a management decision is reached on Recommendation No. 1

In response to Recommendation No. 2, Mission management stated that it would, in the
future, expand the scope of annual testing to include at least five percent of the client’s
loan files and incorporate new client oriented questionnaires in the testing. Based on
the response from the Mission, we consider that a management decision has been
reached on Recommendation No. 2.

In response to Recommendation No. 3, Mission management stated that it reached an
agreement with NBD bank to provide detailed information on the loans granted. In
addition, the Mission received the first report from NBD on April 4, 2006, which it
provided to us along with related correspondence between the Mission and NBD. Based
on the Mission’s response and actions taken, we consider that the recommendation has
been implemented and that final action has been taken on Recommendation No. 3.




                                                                                        10
                                                                             APPENDIX II 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General in Frankfurt audited USAID/Russia’s management of its
Development Credit Authority (DCA) loan guarantee portfolio in accordance with
generally accepted government auditing standards. This audit was performed as part of
a series of audits that were conducted worldwide and led by the Performance Audits
Division of the Office of Inspector General. The purpose of the audit was to determine
whether USAID/Russia managed its DCA loan guarantees to ensure that selected intended
results were achieved.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to DCA guarantees. We identified pertinent internal controls regarding the
Mission’s procedures for managing and monitoring its DCA guarantees. These controls
included Mission interaction with partner banks and borrowers, site visits, establishment
of targets and indicators, and receipt and review of loan schedules.

The audit universe consisted of the three active loan guarantee agreements included in
the Mission’s loan guarantee portfolio at the time of the audit fieldwork. Total loans
authorized to be awarded under these three agreements totaled $17 million, of which
$8.5 million was guaranteed by USAID/Russia. As of September 2005, the loan
portfolios under the three guaranteed loan agreements consisted of 119 individual loans.

Detailed testing was performed at the financial institutions (i.e., lenders) for two of the
three loan guarantees. The two included guarantees with the Center-Invest Bank (CIB)
and SDM Bank, both of which had submitted their data to ODC for review as of
September 30, 2005. Our work on each included a review of a judgmentally-selected
sample of loan files. We limited our review of the third guarantee― an agreement with
ZAO Raiffeisen Bank Austria (Raiffeisen) involving a bank-to-bank loan―to a review of
records relating to the management and monitoring of the loan guarantee agreement.
We reviewed the status of the individual loans awarded under all three loan guarantees.

Mission fieldwork was conducted from January 11 through February 3, 2006, at the
USAID/Russia Mission in Moscow, Russia. In addition, the audit team made visits to the
headquarters of the two lenders reviewed: CIB in Rostov-an-Don, Russia and the SDM
Bank in Moscow, Russia. During these visits, the audit team reviewed 16 of 76
judgmentally selected loan files at CIB and 19 of 42 loan files at SDM. We conducted
site visits to 16 borrowers (9 in Moscow and 7 in Rostov-an-Don).



Methodology
To answer the audit objective, we interviewed Mission staff and inquired about their
interaction with the USAID Office of Development Credit, partner banks, and borrowers.
We also inquired about site visits and procedures for monitoring activities, such as
setting targets and indicators and reviewing and verifying loan schedules. In addition,
we examined Mission files and records related to the DCA loan guarantees. We also



                                                                                        11
                                                                               APPENDIX II


assessed whether loan guarantees were contributing toward achieving the Mission’s
strategic objectives and were supporting the objectives specified in its action memo.
And lastly we determined if loan guarantee utilization fees were current.

We interviewed officials from two partner lenders, CIB and SDM Bank. Our testing
consisted of a review of the loan files for 16 judgmentally-selected loan files at CIB and
19 loan files at SDM. In addition, we made site visits to 16 selected borrowers receiving
financing from the two lenders in order to observe the activities funded by the selected
loans. Our interviews with the lenders included questions designed to verify information
gathered based on our review of the loan files. We also asked the borrowers for their
opinion regarding the loan and the loan process.

In reviewing the loan file for each of the judgmentally selected USAID-guaranteed loans
in the lender’s portfolio and interviewing lenders and borrowers, we determined whether:

   	 Loans were made to qualified borrowers for qualified projects, as specified in the
      guarantee agreement between USAID and the partnering bank.

   	 Activities funded by the loan guarantees represented the intended loan purpose
      stipulated in the partnering banks’ loan files.

   	 USAID/Russia achieved adequate utilization for the dollar amount of loans
      generated, on an aggregate basis, as of September 30, 2005.

   	 The lender provided justification that the borrower could not receive credit without
      the USAID guarantee.

   	 The lender had employed adequate techniques for determining borrower
      repayment ability and creditworthiness.

   	 The lender verified and monitored the business existence and use of loan
      proceeds.

   	 The lender made any decrease in its requirements due to the USAID guarantee
      loan, such as reduction of collateral requirements or length of loan term.

We did not set a materiality threshold for the audit objective as the nature of the audit did
not lend itself to the establishment of such a threshold.




                                                                                          12
                                                                               APPENDIX II




MANAGEMENT COMMENTS




DATE:          May 10, 2006

TO:            Regional Inspector General, Frankfurt – Gerard M. Custer

FROM:          USAID/Russia Mission Director – Terry Myers /s/

SUBJECT:       Audit of USAID/Russia Development Credit Authority (DCA) Program
               Request for Closure of Audit Recommendations 1-3

REF:           Audit Report No. 8-118-06-002-P dated March 21, 2006


The Mission’s Office of Financial Management, the Office of Regional Development
(ORD), and the Office of the Director have reviewed the subject report and response of
the Regional Inspector General (RIG) Office to the Mission memorandum of April 21,
2006. USAID/Russia appreciates the recommendations of the audit report, the
professionalism of the auditors, and the opportunity to comment on the draft report on
USAID/Russia Development Credit Authority (DCA) Program. USAID/Russia concurs
with the observations and recommendations made by the RIG.

As discussed below, we have set forth plans of action to respond to Recommendations
Nos. 1 and 2 and a request to close Recommendation No. 3 as presented in the draft audit.

Recommendation No. 1: We recommend that USAID/Russia modify its standard
Development Credit Authority loan guarantee agreement to include provisions requiring
that USAID-guaranteed loans be restricted to qualified borrowers that would not
otherwise qualify for other loans offered by the lender.

Recommendation No. 2: We recommend that USAID/Russia, in conjunction with the
Office of Development Credit, revise its verification and review procedures by increasing
the extent of the testing to be performed during site visits in verifying that borrowers meet
the prescribed eligibility requirements.




                                                                                          13
                                                                            APPENDIX II



Management Decision
  (1) In regard to Audit Report #8-118-06-002-P dated March 21, 2006,
      Recommendations Nos. 1 and 2, Mission management agrees with the
      recommendations. However, ORD cannot change the language, or introduce
      changes to the signed DCA agreements with the banks under review, as at the
      time of the audit the DCA guarantees have been fully utilized. USAID/Russia
      does not plan to obligate additional DCA loan guarantee agreements during FY
      2006.
  (2) For any new agreements, ORD will ensure that specific procedures and more
      restrictive definitions for DCA guarantee users will be established and developed
      based on the nature of the DCA deals and the participants. These specifics
      developed by ORD will be discussed with DCA/EGAT, and if approved, they will
      be incorporated in standard DCA agreements. For example, ORD will suggest
      that new DCA guarantees include:
          •	 A condition that the guarantee will not be provided for repeat
               clients/borrowers;
          �	       A more restrictive definition for those
               institutions/firms/enterprises/banks, etc. that may receive a DCA
               guarantee; and,
          � 	 A condition that banks that are established by financial industrial
               groups as treasury operations will not be selected for DCA deals.
  (3) The Mission agrees with Recommendation No. 2 to increase the scope and extent
      of testing performed by the Mission's staff during site visits. The Mission will
      annually test at least 5% of the clients’ files. Before the audit, the program staff
      conducted testing semi-annually based on the standard questionnaire developed
      by DCA/EGAT (see Attachment #1, Monitoring Plan – Check List for
      Semiannual Bank Visits). ORD will expand the questionnaire currently in use by
      adding more specific questions similar to those asked by the auditors during their
      recent site visits (see Attachment #2). A new questionnaire will be client-oriented
      and will reflect specifics of new deals concluded with new market participants
      (not necessarily with banks). A new questionnaire will be started and
      completed simultaneously with new deals' negotiations as soon as the new players
      will be known.
  (4) We expect to take a final action and obtain a response from DCA/EGAT
      concerning establishment of the new procedures and development of a new
      questionnaire no later than March 20, 2007.

Recommendation No. 3: We recommend that USAID/Russia develop procedures to
ensure that the Mission obtains sufficiently detailed performance information from the
NBD Bank to determine if the desired results are being achieved under its Development
Credit Authority loan guarantee agreement with Raiffieisen Bank Austria.

Management Decision
(1) In February 2006 Mission management agreed with NBD Bank that the bank will
    submit semi-annual reports to USAID/Russia on all loans issued under their USAID
    bank-to- bank guarantee. These reports will contain general information on lending


                                                                                       14
                                                                            APPENDIX II



   outreach to include: the total number of loans issued, the amounts of individual loans,
   and the total amount of the active portfolio. Further, NBD bank agreed to provide
   detailed information on each loan, including such information as amount, term, and
   loan type. This information is similar to that required from DCA loan guarantee
   lenders for the Contract Monitoring System (CMS). It was further agreed with NBD
   Bank that the lending data will be for our internal use only.

The Date of Final Action
The date of final action is April 4, 2006, when the first report from NBD Bank was
received by USAID/Russia. The report contained all requested data as of March 3, 2006.
The subject report and the correspondence between the CTO, ORD, USAID/R and NBD
bank requesting a semi-annual report from NBD bank are attached to this memorandum
(see Attachment #3).
Additionally, attached is the memorandum issued by ORD’s CTO to ORD’s internal files
confirming that negotiations were held with NBD bank on the type, format, and
frequency of NBD’s reporting to USAID under the DCA program (see Attachment #4).

Final Action

USAID/Russia requests that this recommendation be closed. 





                                                                                       15
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
